                  May 20, 1997



MEMORANDUM FOR:       THE SECRETARY

FROM:                 John C. Layton
                      Inspector General

SUBJECT:              INFORMATION: Report on "Audit of
                      the Savannah River Site's Quality
                      Control Program for Groundwater
                      Sampling"

BACKGROUND

The Savannah River Site's groundwater remediation
program was managed by the Department of Energy's
(Department) management and operating contractor for
the site, Westinghouse Savannah River Company
(Westinghouse). One component of the remediation
program was the quality control program. The goal of
the groundwater quality control program was to ensure
that the results of laboratory analyses of groundwater
samples were accurate and precise so that they could be
relied upon for making remediation decisions. The
objective of this audit was to determine whether
Westinghouse acquired the minimal number of laboratory
analyses required to ensure that groundwater sampling
results met this criteria.

DISCUSSION

Westinghouse required more quality control analyses
than necessary to ensure that groundwater sampling
results were accurate and precise. This occurred
because Westinghouse originally designed its
groundwater quality control program to secure
Departmental acceptance, and it did not periodically
review program requirements to identify and eliminate
unnecessary analyses. As a result, about $500,000 of
the $859,000 spent on the program in Calendar Year 1995
was unnecessary. During the audit, Westinghouse
discontinued two types of laboratory analyses,
resulting in annual savings to the Department of about
$200,000. While acknowledging Westinghouse's
accomplishments, we determined that it could save the
Department an additional $300,000 annually by
eliminating the requirement for other nonessential
analyses.

Based on audit results, we recommended that the Manager
of Savannah River Operations Office: (1) require
Westinghouse to eliminate split sample analyses from
its groundwater quality control program unless a clear
requirement can be demonstrated; (2) require
Westinghouse to periodically review the effectiveness
          of the groundwater quality control program and modify
          the types and numbers of laboratory analyses required
          based on review results; and, (3) perform a "for cause"
          review of Westinghouse's other quality control programs
          to evaluate the appropriateness of quality control
          analyses being performed.

          The Manager, Savannah River Operations Office,
          concurred with the finding and recommendations.

          Environmental remediation quality control programs and
          programs for testing and sampling have been the subject
          of numerous recent Office of Inspector General audit
          reports. In these reports, we raised concerns about
          the Department's implementation of quality control
          programs. We recognize the importance of quality
          control programs as a means of ensuring that the
          Department's environmental remediation efforts are
          properly focused and that the Department is getting
          value for the resources it applies to testing and
          sampling. As noted in this report, however, despite
          the importance of quality control programs, the cost of
          such programs should be reasonable and commensurate
          with existing requirements.

          Attachment

          cc:Deputy Secretary
             Under Secretary
             Manager, Savannah River Operations Office



                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




                             AUDIT OF THE

          SAVANNAH RIVER SITE'S QUALITY CONTROL PROGRAM

                       FOR GROUNDWATER SAMPLING




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
 Therefore, this report will be available electronically through
    the Internet five to seven days after publication at the
                following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov
            Department of Energy Headquarters Anonymous FTP
                          vm1.hqadmin.doe.gov

  Department of Energy Human Resources Administration Home Page
               http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.

                 This report can be obtained from the
                       U.S. Department of Energy
            Office of Scientific and Technical Information
                              P.O. Box 62
                      Oak Ridge, Tennessee 37831




  Report Number:     DOE/IG-405     Eastern Regional Audit Office
  Date of Issue:     May 20, 1997   Oak Ridge, TN 37830


                             AUDIT OF THE
             SAVANNAH RIVER SITE'S QUALITY CONTROL PROGRAM
                       FOR GROUNDWATER SAMPLING


                           TABLE OF CONTENTS


                                                                 Page

             SUMMARY . . . . . . . . . . . . . . . . . . . . .    1

PART 1     - APPROACH AND OVERVIEW . . . . . . . . . . . . . .    2

             Introduction . . . . . . . . . . . . . . . . . . . 2

             Scope and Methodology . . . . . . . . . . . . . .    2

             Background . . . . . . . . . . . . . . . . . . .     3

             Prior Audit Reports . . . . . . . . . . . . . . .    3

PART II - FINDING AND RECOMMENDATIONS . . . . . . . . . . .       5

             Laboratory Analyses of Quality Control Samples. .    5

PART III     -MANAGEMENT AND AUDITOR COMMENTS . . . . . . . .     8
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

                          AUDIT OF THE
          SAVANNAH RIVER SITE'S QUALITY CONTROL PROGRAM
                    FOR GROUNDWATER SAMPLING


Audit Report Number:   DOE/IG-0405


                              SUMMARY


     The Savannah River Site's (Site) groundwater remediation
program was managed by the Department of Energy's (Department)
management and operating contractor for the Site, Westinghouse
Savannah River Company (Westinghouse). The goal of the groundwater
quality control program, a component of the remediation program,
was to ensure that the results of laboratory analyses of groundwater
samples were accurate and precise so that they could be relied upon
for making remediation decisions. The objective of this audit was
to determine whether Westinghouse acquired the minimal number of
laboratory analyses required to ensure that groundwater sampling
results were sufficiently accurate and precise.

     We found that Westinghouse required more quality control analyses
than necessary to ensure that groundwater sampling results were accurate
and precise. This occurred because Westinghouse originally designed its
groundwater quality control program to secure Departmental acceptance,
and it did not periodically review program requirements to identify and
eliminate unnecessary analyses. As a result, about $500,000 of the
$859,000 spent on the program in Calendar Year 1995 was unnecessary.
During the audit, Westinghouse discontinued two types of laboratory
analyses, resulting in annual savings to the Department of about
$200,000. While acknowledging Westinghouse s accomplishments, we
determined that the Department could save an additional $300,000
annually if other nonessential analyses were discontinued.

     Management concurred with the finding and recommendations in
the report.

                                        (Signed)_______
                                        Office of Inspector General


                              PART I

                       APPROACH AND OVERVIEW


INTRODUCTION

     One of the primary missions at the Site was the remediation of
contaminated groundwater which was carried out by the Site's manage-
ment and operating contractor, Westinghouse. Westinghouse obtained
information about the level of contamination in the groundwater from
the analyses of groundwater samples performed by three subcontractor
laboratories. In order to make informed remediation decisions,
Westinghouse needed confidence in the accuracy and precision of the
analyses reported by the subcontractor laboratories. That assurance
was obtained through Westinghouse's groundwater quality control
program. The objective of the audit was to determine whether
Westinghouse acquired the minimal number of laboratory analyses
required to ensure that the sampling results were sufficiently
accurate and precise.


SCOPE AND METHODOLOGY

     The audit was performed at the Site from June 24, 1996, through
December 9, 1996. To accomplish the audit objective, we:

     o Reviewed applicable Federal, State, and Department regulations
       regarding groundwater analysis;

     o Evaluated current operating costs for the groundwater sampling
       program;

     o Interviewed the Savannah River Operations Office (Savannah
       River) and Westinghouse project managers assigned to the
       quality control program for groundwater sampling; and

     o Reviewed documentation pertaining to the history and develop-
       ment of the groundwater quality control program.

     The audit was conducted in accordance with generally accepted
Government auditing standards for performance audits, and included tests
of internal controls and compliance with laws and regulations to the
extent necessary to satisfy the objective of the audit. Because our
review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We
relied on computer-generated data during this audit and, thus, tested its
reliability. Specifically, we used Westinghouse s data base containing
the results of groundwater analyses. We verified the types and numbers
of analyses performed by comparing the data base to another independently
generated record of the analyses.

     We held an exit conference with the Deputy Assistant Manager for
Environmental Quality, Savannah River and his staff on March 5, 1997.
Management's comments are summarized in Part III of the report.


BACKGROUND

     For over 40 years, the Site used five nuclear reactors to fulfill
its primary mission of producing tritium and other radioisotopes for
use in defense-related activities. In August 1988, the Department
shut down the last of the Site's three operating reactors. Sub-
sequently, the Site's primary mission was changed from producing
nuclear materials to managing waste products generated during weapons
production and restoring the environment to a level acceptable under
current laws and regulations. One of the contaminated areas needing
environmental remediation was the groundwater under the Site.

     In Calendar Year (CY) 1995, Westinghouse spent about $3.2 million
to have 3 subcontractor laboratories analyze about 69,000 groundwater
samples in support of the remediation mission at the Site. The
Department needed confidence in the accuracy and precision of that
information in order to make the best remediation decisions possible.
As a result, a quality control program was established.

     To evaluate the accuracy and precision of the laboratories'
analyses of groundwater samples, Westinghouse required the laboratories
to analyze quality control samples and report the results back to
Westinghouse. In CY 1995, Westinghouse paid the laboratories about
$859,000 to analyze and report on more than 17,000 groundwater
quality control samples.

     Westinghouse's quality control program confirmed that the three
laboratories' analyses of groundwater samples were sufficiently
accurate and precise for decision-making purposes. In addition to
Westinghouse's program, the laboratories also participated in several
other quality control programs, including evaluations by other elements
of the Department, the U.S. Environmental Protection Agency, and the
laboratories' own internal quality control activities. Therefore,
Westinghouse could be confident about the results of the laboratories'
analyses of groundwater samples.


PRIOR AUDIT REPORTS

     The Office of Inspector General (OIG) previously issued a
report dealing with groundwater remediation at the Site. In report
ER-B-96-02, Audit of Groundwater Remediation Plans at the Savannah
River Site, dated June 11, 1996, we concluded that the Department
entered into a remediation agreement with regulatory agencies based
on unreasonable clean-up standards. The agreement required that the
Department remediate groundwater in the F and H Areas to drinking-
water standards.

     In addition, the OIG issued several audit reports dealing with
groundwater remediation at other Departmental sites. In report
WR-B-97-03, Audit of Groundwater Monitoring at Hanford, dated
November 15, 1996, we determined that Hanford's contractors dupli-
cated each other's work in sampling and analyzing groundwater and
in reporting results. In report DOE/IG-0374, Audit of the Department
of Energy's Commercial Laboratory Quality Assurance Evaluation Program,
dated June 20, 1995, we concluded that the Department's contractors
conducted redundant quality assurance evaluations of some commercial
laboratories, did not evaluate others, applied standards inconsistently,
produced inconsistent results, and did not communicate the results
among contractors. Finally, in report DOE/IG-0293, Audit of Testing
Laboratory Support to the Environmental Survey Program, dated
December 21, 1990, we determined that samples were not always analyzed
by Departmental laboratories within required time frames and
laboratories continued to analyze samples after failing performance
evaluation tests.
     Our audit disclosed a material internal control weakness that
management should consider when preparing its yearend assurance
memorandum on internal controls.


                                PART II

                      FINDING AND RECOMMENDATIONS


Laboratory Analyses of Quality Control Samples

FINDING

    Departmental regulations require that Westinghouse develop a cost-
effective quality control program, including programs for groundwater
sampling. Although Westinghouse developed a program that ensured
laboratory analyses of groundwater samples were accurate and precise,
the program was not cost-effective. Specifically, Westinghouse required
more quality control analyses than necessary to ensure the accuracy and
precision of sample results. This occurred because Westinghouse designed
the program to secure Departmental acceptance and did not periodically
assess program effectiveness. As a result, about $500,000 of the
$859,000 spent on the program in CY 1995 was unnecessary. During the
audit, Westinghouse discontinued two types of laboratory analyses,
resulting in annual cost savings of about $200,000. We determined that
an additional $300,000 could be saved each year if other nonessential
analyses were eliminated.


RECOMMENDATIONS

     We recommend that the Manager, Savannah River Operations Office:

          Require Westinghouse to eliminate split-sample analyses
          from its groundwater quality control program unless a
          clear requirement can be demonstrated,

          Require Westinghouse to periodically review the effective-
          ness of the groundwater quality control program and modify
          the types and numbers of laboratory analyses required based
          on review results, and

          Perform a "for cause" review of Westinghouse's other quality
          control programs to evaluate the appropriateness of quality
          control analyses being performed.


MANAGEMENT REACTION

     Management concurred with the finding and recommendations.
Comments received from the Manager, Savannah River Operations Office,
are summarized and addressed in Part III of this report.
                       DETAILS OF FINDING


DEPARTMENTAL REQUIREMENTS

     Departmental Order 5700.6C, Quality Assurance, requires management
and operating contractors to develop cost-effective quality control
programs, including programs for groundwater sampling. Contractors are
required to periodically assess the effectiveness of their programs,
including the types and numbers of analyses required. The order provides
general guidelines for contractors to follow in developing effective
programs. However, it does not specify the types or numbers of analyses
required for an effective groundwater quality control program.


WESTINGHOUSE'S QUALITY CONTROL PROGRAM

     Westinghouse's quality control program was not cost-effective.
Westinghouse required more quality control analyses than necessary to
ensure the accuracy and precision of sample results. During the audit,
Westinghouse performed a partial assessment of its groundwater quality
control program and eliminated requirements for laboratories to perform
(1) gas chromatographic mass spectrometric volatile organic analysis
(VOA) of field-blank samples1 and (2) quality control analyses of
split2 field-blank samples. In CY 1995, the laboratories performed
about 1,000 VOAs of field blanks and about 3,300 quality control
analyses of split field-blank samples.

     While acknowledging Westinghouse's efforts to eliminate un-
necessary quality control analyses, we believe Westinghouse could
do more. Specifically, Westinghouse could eliminate quality control
analyses for all split samples, not just the split field-blank
samples, without adversely affecting program results.

     Split samples added little or no value to Westinghouse's
groundwater quality control program. Westinghouse used the analyses
of split samples to compare the results reported by two laboratories
for identical samples. The comparison was unnecessary because
Westinghouse already had confirmation from other quality control
tests that the laboratories were sufficiently accurate and precise.
Further quantification of how the acceptable results of one
laboratory compared to the acceptable results of another laboratory
did not increase the Department's ability to rely on groundwater
sampling data.

     During CY 1995, Westinghouse sent about 9,900 split samples to
the laboratories for analysis. As a result of our audit inquiries,
Westinghouse reviewed the analyses of split samples and determined
that it could eliminate the analyses of about 3,300 split field-blank
samples. Westinghouse's determination was based on its observation
that (1) the analyses were not required by regulatory agencies, and
(2) the loss of information about the comparability of laboratories'
analyses of field-blank samples would have no impact on the quality
control program for groundwater sampling. As explained above, we
believe that Westinghouse could eliminate quality control analyses
for all split samples, not just the split field-blank samples, without
adversely affecting the groundwater quality control program.
PROGRAM DEVELOPMENT AND PERIODIC REVIEW

     Westinghouse acquired more laboratory analyses than needed
because it designed the groundwater quality control program to secure
Departmental acceptance, and it did not periodically review the program
to identify and eliminate unnecessary analyses. In the absence of
specific guidelines as to the types and numbers of quality control
analyses required by the Department, Westinghouse designed its program
to be certain that the Department would approve the level of testing
performed. After the program began, Westinghouse did not periodically
review and modify its requirements as required by Departmental Order
5700.6C. Although the program began in CY 1991, Westinghouse performed
its first internal assessment of a portion of its quality control
program during our audit. That assessment resulted in the elimination
of some VOAs and quality control analyses of split field-blank samples.

COST OF UNNECESSARY QUALITY CONTROL ANALYSES

     We determined that about $500,000 of the $859,000 spent on
Westinghouse's quality control program in CY 1995 was unnecessary.
During the audit, Westinghouse eliminated annual requirements for
about 4,300 analyses, thereby saving the Department about $200,000
each year. However, we believe Westinghouse could save the
Department another $300,000 annually by completely eliminating
requirements for analyses of split samples.

     In addition to procurement costs, reducing the number of
quality control analyses would reduce other Westinghouse costs, such
as the cost of preparing and handling unnecessary samples and the cost
of shipping the samples to the laboratories. We could not quantify
these additional savings because Westinghouse's accounting system
did not separately identify these costs.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS


     In responding to the initial draft of this report, the Manager,
Savannah River Operations Office concurred with the finding and
recommendations. Management's comments are summarized and addressed
below.

Recommendation 1.   Require Westinghouse to eliminate split-sampling
analyses from its groundwater quality control program unless a clear
requirement can be demonstrated.

     Management Comments. Concur. Savannah River Site will follow
external requirements like Environmental Protection Agency (EPA)
guidance cited in Handbook for Analytical Quality Control in Water
and Waste-water Laboratories (EPA-600/4-79-019).

     Auditor Comments. Management's proposed actions are
responsive to the recommendation.
Recommendation 2. Require Westinghouse to periodically review the
effectiveness of the groundwater quality control program and modify
the types and numbers of laboratory analyses required based on review
results.

     Management Comments. Concur. Westinghouse will be directed to
review and report on the effectiveness of its groundwater quality
control program for FY 1996 within 120 days from the date of this
report, with subsequent annual reviews and reports for each fiscal
year by the first of February of the following year.

     Auditor Comments.    Management's proposed actions are
responsive to the recommendation.

Recommendation 3.   Perform a "for cause" review of Westinghouse's
other quality control programs to evaluate the appropriateness of
quality control analyses being performed.

     Management Comments. Concur. Savannah River will direct
Westinghouse to determine the appropriateness of the quality
control analyses being performed and to look for cost effective
approaches in complying with these requirements.

     Auditor Comments.   Management's proposed actions are
responsive to the recommendation.

                                               IG Report No._IG-0405




                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us.
On the back of this form, you may suggest improvements to enhance
the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

     1.   What additional background information about the
          selection, scheduling, scope, or procedures of the
          audit or inspection would have been helpful to the
          reader in understanding this report?

     2.   What additional information related to findings and
          recommendations could have been included in this
          report to assist management in implementing
          corrective actions?

     3.   What format, stylistic, or organizational changes might
          have made this report's overall message more clear to the
          reader?

     4.   What additional actions could the Office of Inspector
          General have taken on the issues discussed in this report
          which would have been helpful?

Please include your name and telephone number so that we may contact
you should we have any questions about your comments.

Name ____________________________   Date_____________________

Telephone _______________________   Organization_____________

When you have completed this form, you may telefax it to the Office
of Inspector General at (202) 586-0948, or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff
member of the Office of Inspector General, please contact Wilma
Slaughter at (202) 586-1924.




_______________________________
1 Field-blank samples were bottles of deionized water that were
transported to the wells, opened and closed at the wells, and sent to
laboratories to be analyzed. If a field-blank sample was analyzed and
determined to be contaminated, management would suspect that contaminants
were introduced to the groundwater samples during extraction at the site.
2 Split sampling involved physically dividing a single sample into two
samples and sending each sample to a different laboratory for analysis.
Split samples were used to compare the results reported by two
laboratories for identical samples.
